                         Improvements Are Needed
                   for Processing Income Tax Returns of
                        Controlled Corporate Groups

                                 September 2004

                       Reference Number: 2004-30-170




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                 September 21, 2004


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT


      FROM:                        Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Improvements Are Needed for Processing
                                   Income Tax Returns of Controlled Corporate Groups
                                   (Audit # 200330035)


      This report presents the results of our review to evaluate the Internal Revenue Service’s
      (IRS) effectiveness in processing the income tax returns of controlled corporate groups
      and to evaluate taxpayers’ and tax preparers’ understanding of the filing requirements
      for members of controlled corporate groups.
      Corporations are classified as members of a controlled group if they are connected
      through certain stock ownership. All corporate members of a controlled group are
      treated as one single entity for tax purposes. However, each member of the group can
      file its own tax return rather than the group filing one consolidated return. The
      controlled group of corporations is subject to limitations on tax benefits to ensure the
      benefits of the group do not amount to more than those to which one single corporation
      would be entitled. A previous audit report1 discussed how taxes on corporate tax
      returns for members of controlled corporate groups were not being correctly assessed
      because of inadequate processing controls and insufficient taxpayer information.
      In summary, the IRS has developed a computer program to identify returns potentially
      liable for additional taxes and has established procedures for its employees to
      correspond with taxpayers for missing or insufficient information. These controls, if
      functioning properly, would improve the processing of tax returns for controlled
      corporate groups. However, additional improvements to processing controls and
      instructions to return preparers are needed.


      1
       Review of the Service’s Implementation of the Business Tax Provisions for the Omnibus Budget Reconciliation Act
      (Reference Number 053612, dated March 1995).
                                                         2

From a statistical sample of tax returns filed for controlled corporate groups, we
determined nearly 70 percent contained taxpayer or preparer errors, and 14 percent
were processed incorrectly by IRS employees. We determined the IRS’ criteria for
identifying returns potentially liable for additional taxes was set too high. This allowed
controlled corporate groups with individual taxable incomes below the level liable for
additional taxes, but with combined taxable incomes above that level, to go undetected
if they failed to pay the additional taxes. We also determined the IRS required some
information from members of controlled corporate groups that was not necessary to
process the tax returns or to determine the correct tax liabilities.
We recommended the Commissioners, Large and Mid-Size Business (LMSB) and Small
Business/Self-Employed (SB/SE) Divisions, consider requiring a standard form for the
apportionment plan2 which will meet the needs of their compliance functions as well as
the needs of their submission processing functions. The Director, Customer Account
Services, SB/SE Division, should stress during training the importance of following
existing processing instructions for tax returns of members of controlled corporate
groups and should consider requesting revisions to computer programming to lower the
threshold to systemically identify those returns warranting manual review and
verification. Finally, the Division Counsels/Associate Chief Counsels (LMSB) and
(Corporate) working with the Director, Tax Forms and Publications, Wage and
Investment (W&I) Division, should evaluate the necessity for each item now required in
the apportionment plan and determine whether items can be eliminated.
Management’s Response: The Commissioner, SB/SE Division, agreed with our
findings and is planning to implement several corrective actions and to complete an
analysis of the feasibility of implementing the other recommendations. The
Commissioner, SB/SE Division, stated that further review of our samples would be
necessary before the IRS could comment on our estimate that the recommendations in
this report will provide over $5.93 million annually in potential increased revenue and
over $448,000 annually in taxpayer rights and entitlements.
Specifically, the LMSB Division will work with the Chief Counsel, the SB/SE Division
Compliance function, and the W&I Division Tax Forms and Publications function to
review Treasury Regulation 1.1561-3(b) and determine the feasibility of requiring a
standard form to be filed annually for the apportionment plan. The Commissioner,
SB/SE Division, noted that employee training material will be clearly stated and that
analysts will participate in employee training to stress the importance of following the
training instructions and manually verifying the tax when processing controlled
corporate group returns. The Director, Customer Account Services, SB/SE Division, will
conduct a study of controlled corporate groups to determine the feasibility of revising
computer programming to systemically identify returns potentially liable for additional

2
 A controlled group of corporations filing separate returns is allowed only one set of graduated income tax brackets
and respective tax rates. All members of the controlled corporate group must share the graduated tax bracket
amounts equally unless all members elect otherwise. If the corporate members elect to apportion the graduated tax
brackets unequally, all members must consent to an apportionment plan and attach a signed copy of the plan to their
corporate tax returns.
                                             3

tax. Results of the study will include a cost-benefit analysis to determine the feasibility
of lowering the threshold. Finally, the Associate Chief Counsel (Corporate) will work
with the LMSB Division, SB/SE Division Compliance function, and W&I Division Tax
Forms and Publications function to determine information that is required with respect to
controlled corporate group consents and apportionment plans in light of the
apportionment information the IRS needs. Management’s complete response to the
draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
                              Improvements Are Needed for Processing
                          Income Tax Returns of Controlled Corporate Groups




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Established Procedures to Improve
the Processing of Tax Returns for Controlled Corporate Groups .............. Page 2
The Internal Revenue Service Needs to Ensure Processing
Procedures Are Followed and Taxpayer Filing Errors Are Identified
to Correctly Assess Tax ............................................................................ Page 2
         Recommendation 1: .........................................................................Page 7
         Recommendations 2 and 3: .............................................................Page 8

Taxpayer Burden Could Be Reduced by Requiring Less
Information on Apportionment Plans ......................................................... Page 8
         Recommendation 4: .........................................................................Page 9

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 11
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Outcome Measures............................................................ Page 16
Appendix V – Management’s Response to the Draft Report ..................... Page 18
                 Improvements Are Needed for Processing
             Income Tax Returns of Controlled Corporate Groups

                           Corporations are classified as members of a controlled
Background
                           group if they are connected through certain stock ownership.
                           A parent-subsidiary controlled group consists of one or
                           more chains of corporations connected through stock
                           ownership with a common parent corporation.1 A
                           brother-sister controlled group exists if five or fewer
                           persons commonly own two or more corporations.
                           All corporate members of a controlled group are treated as
                           one single entity for tax purposes (i.e., only one set of
                           graduated income tax brackets and respective tax rates
                           applies to the group’s total taxable income). However, each
                           member of the group can file its own tax return rather than
                           the group filing one consolidated return. The controlled
                           group of corporations is subject to limitations on tax
                           benefits2 to ensure the benefits of the group do not amount
                           to more than those to which one single corporation would be
                           entitled.
                           This review was performed during the period May 2003
                           through February 2004 through analysis and review of tax
                           return information processed at the Ogden and Cincinnati
                           Internal Revenue Service (IRS) Submission Processing
                           Sites.3 The audit was conducted in accordance with
                           Government Auditing Standards. Detailed information on
                           our audit objectives, scope, and methodology is presented in
                           Appendix I. Major contributors to the report are listed in
                           Appendix II.




                           1
                             Specifically, Internal Revenue Code § 1563 (a) (1) (1994 & Supp. IV
                           1998) defines a parent-subsidiary controlled corporate group as 1 or
                           more chains of corporations connected through stock ownership with a
                           common parent where:
                           - The common parent owns stock having at least 80 percent of the
                                total combined voting power of all classes of stock entitled to vote,
                                or at least 80 percent of the total value of shares of all classes of
                                stock, of at least 1 other corporation in the chain.
                           - At least 80 percent of the stock (combined voting power or value)
                                of each corporation in the chain (other than the parent) is owned by
                                1 or more of the other corporations in the chain.
                           2
                             These benefits include graduated tax rates, accumulated earnings
                           credits, alternative minimum tax exemptions, etc.
                           3
                             IRS Submission Processing sites are responsible for processing tax
                           returns and payments and issuing refunds.
                                                                                             Page 1
                        Improvements Are Needed for Processing
                    Income Tax Returns of Controlled Corporate Groups

                                  A previous audit report4 discussed how taxes on corporate
The Internal Revenue Service      tax returns for members of controlled corporate groups were
Established Procedures to         not being correctly assessed because of inadequate
Improve the Processing of Tax     processing controls and insufficient taxpayer information.
Returns for Controlled            As a result of that report, the IRS developed a computer
Corporate Groups                  program to identify returns with taxable income over a
                                  certain dollar threshold for verification of certain items such
                                  as the calculation of tax, the applicability of any additional
                                  tax, and the presence of necessary schedules. The IRS also
                                  established processing procedures for employees to
                                  correspond with taxpayers for missing or insufficient
                                  information on these returns.
                                  These controls, if all functioning properly, would improve
                                  the processing of tax returns for controlled corporate groups.
                                  However, additional improvements to processing controls
                                  and instructions to taxpayers and preparers are needed.
                                  Corporations are normally taxed at graduated rates that
The Internal Revenue Service
                                  range from 15 percent to 35 percent. The tax brackets
Needs to Ensure Processing
                                  increase at taxable incomes over $50,000, $75,000, and
Procedures Are Followed and
                                  $10 million. Any income exceeding $10 million is taxed at
Taxpayer Filing Errors Are
                                  the maximum rate of 35 percent.
Identified to Correctly Assess
Tax                               In addition, corporations with taxable incomes in excess of
                                  $100,000 and $15 million are subject to an additional
                                  5 percent tax, not to exceed $11,750, and an additional
                                  3 percent tax, not to exceed $100,000, respectively (see
                                  Table 1).
                                  A controlled group of corporations filing separate returns is
                                  allowed only one set of graduated income tax brackets and
                                  respective tax rates that is applied to the group’s total
                                  taxable income. All members of the controlled corporate
                                  group must share the graduated tax bracket amounts equally
                                  unless all members elect otherwise. All members are also
                                  treated as one corporation for purposes of determining
                                  whether the additional taxes are applicable.




                                  4
                                    Review of the Service’s Implementation of the Business Tax Provisions
                                  for the Omnibus Budget Reconciliation Act (Reference Number 053612,
                                  dated March 1995).
                                                                                                 Page 2
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups

                                Table 1: Corporate Tax Rate Schedule
                                                                              Amount
                                                                             Subject to
                       Taxable Income                   Tax Rate             This Rate
                          $0 - $50,000                     15%                $50,000
                       $50,001 - $75,000                   25%                $25,000
                    $75,001 - $10,000,000                  34%               $9,925,000
                       Over $10,000,000                    35%               Unlimited

                                           Additional Tax
                     $100,001 - $335,000                    5%               $235,000
                  $15,000,001 - $18,333,333                 3%               $3,333,333
              Source: Summarized from Instructions for U.S. Corporation Income
              Tax Returns (Forms 1120 and 1120-A).

              Taxpayers indicate they are members of a controlled
              corporate group by marking a box on the tax computation
              schedule of the income tax return. If the corporate members
              elect to apportion the graduated tax brackets and/or
              additional tax amounts unequally, all members must consent
              to an apportionment plan and attach a signed copy of the
              plan to their corporate tax returns. The apportionment plan
              must be signed by an authorized person and include the
              name, address, Taxpayer Identification Number, tax year,
              amount apportioned, and IRS Submission Processing site at
              which the original apportionment plan is to be filed.5
              IRS employees are responsible for placing the proper codes
              (controlled corporate group codes) on the returns and
              accurately entering them and any taxpayer amounts into the
              computer system when taxpayers have marked the box. The
              IRS uses the information indicated by the taxpayer to
              calculate and assess income tax.
              Taxpayers do not always properly file income tax
              returns for all corporate members of the group
              Using a computer program, we identified
              36,354 Forms 1120 filed in Calendar Year 2002 with net


              5
                  Treas. Reg. § 1.1561-3(b) (revised as of April 1, 2003).
                                                                                  Page 3
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups

              taxable income greater than $6,6666 for which IRS records
              indicated the taxpayers filed as a member of a controlled
              corporate group. We reviewed a statistically valid sample
              of 73 of these returns and found nearly 70 percent had some
              taxpayer or preparer errors.
              •   Fifteen (20 percent) did not have an apportionment plan
                  when it was required.
              •   Thirty-six (49 percent) contained inaccuracies because
                  of errors in completing or apportioning the graduated tax
                  bracket amounts, failing to determine the additional tax
                  applicable to the controlled corporate group, or failing to
                  provide all the information related to the apportionment
                  plan.
              A significant part of the IRS’ mission is to help taxpayers
              understand and meet their tax responsibilities. The
              instructions provided by the IRS for filing tax returns for
              controlled corporate groups were unclear and may have
              contributed to taxpayers’ errors. The instructions did not
              provide taxpayers with a clear explanation of a controlled
              corporate group or apportionment plan requirements but
              instead provided references to sections of the Internal
              Revenue Code. In addition, the IRS did not provide or
              require a standard tax form or schedule to document either a
              controlled corporate group’s tax computation7 or the
              apportionment of the graduated tax brackets among all
              members of a controlled corporate group.
              Because of this, taxpayers did not prepare apportionment
              plans or used a wide variety of methods to document their
              tax calculations or apportionments. Their documentation
              often had incomplete information and contained errors. The
              taxpayers often failed to consider taxable income levels for
              all members of the group and overlooked the applicability of
              the additional taxes. Further, IRS regulations are




              6
                Returns with this net taxable income have potential income taxes of
              $1,000 or more at a 15 percent tax rate.
              7
                The IRS does provide a tax computation worksheet, but the worksheet
              is not attached to the tax return and may not be completed by the
              taxpayer.
                                                                            Page 4
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups

              ambiguous regarding whether a copy of the apportionment
              plan should be attached with the tax return each year.8
              Without properly prepared tax apportionment schedules, the
              IRS cannot correctly identify all members of a controlled
              corporate group or their respective taxable income levels
              and apportioned tax bracket amounts and cannot verify each
              member’s computed tax and additional tax. Processing of
              inaccurately prepared or incomplete returns can be delayed
              while IRS employees attempt to correct inaccuracies or
              obtain more information. If these returns are not corrected,
              the taxes paid by the corporations will not be correct.
              Eleven of the tax returns in our sample contained incorrect
              tax amounts. Based on the results of our sample, we
              estimate that controlled corporate groups inaccurately filed
              approximately 5,400 Tax Year 2002 tax returns, resulting in
              underpaid taxes of over $5.93 million and overpaid taxes of
              over $448,000.
              IRS employees did not always properly process
              controlled corporate group income tax returns
              Of the 73 tax returns included in our sample, 10 (14 percent)
              were incorrectly processed by the IRS.9
              The IRS has established controls to systemically identify
              controlled corporate group returns that are potentially liable
              for additional tax amounts. The controls include the
              computerized identification of any return from a controlled
              corporate group with taxable income over a certain dollar
              threshold for manual verification of tax computations by
              IRS employees and the requirement for any controlled
              corporate group with unequal apportionment of the tax
              brackets to include an apportionment plan with its return.
              All 10 of the returns processed incorrectly had taxable
              income of more than the threshold and were subject to
              verification by IRS employees. However, IRS employees

              8
                IRS regulations in one section tell taxpayers that an apportionment
              plan has a continuing effect and need not be renewed annually.
              However, in other sections, the regulations state that each component
              member of the group should attach a copy of its consent to its income
              tax return.
              9
                Nine of these 10 returns were included in those with taxpayer errors
              discussed earlier.
                                                                               Page 5
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups

              did not take the appropriate action to process these
              10 returns. In these instances, taxpayers made errors or did
              not include all required information on their tax
              computation schedules or apportionment plans; however,
              IRS employees did not correct the errors or contact the
              taxpayers for the missing information or plans.
              Possible causes for the IRS employee errors include:
              •   Employees encounter tax returns from members of
                  controlled corporate groups much less often than other
                  tax returns and may not be as familiar with the
                  processing procedures.
              •   Employees can easily bypass the processing controls
                  requiring validation of information on returns meeting
                  the threshold criteria by taking no action and simply
                  placing the return back into the processing stream.
              The threshold for manual verification of controlled
              corporate group returns allows errors to go undetected
              The IRS’ computer program to automatically identify a tax
              return that may be liable for additional taxes is set at the
              specific threshold at which the entire controlled corporate
              group becomes liable for the additional taxes.
              Since information to tie all the members of a controlled
              corporate group together is not entered into IRS computers,
              the only way to determine whether the group is liable for the
              additional tax or has properly filed all schedules is through
              manual review of the tax computation and apportionment
              plan for the group. The additional tax applies when the total
              taxable income of all the corporations in the controlled
              corporate group together reaches the threshold amount.
              Therefore, setting the criteria for manual verification of tax
              computations at that specific level allows controlled
              corporate groups whose individual members have taxable
              income of less than the threshold amount, but the total
              group taxable income is more than that amount, to omit
              paying the additional tax without their errors being detected
              by the IRS.
              For our population of 36,354 tax returns for controlled
              corporate groups, we determined that over 60 percent would
              not be identified by themselves (without adding the taxable
                                                                     Page 6
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups

              income of other members) as potentially liable for
              additional tax amounts and, therefore, would not be
              systemically identified during processing.
              In our sample of 73 returns, 6 (8 percent) had taxable
              income below the threshold amount that, when combined
              with the taxable income of other members of the group,
              exceeded the threshold. In two of these six cases, the
              controlled corporate group did not pay the additional tax.

              Recommendations

              1. The Commissioner, Large and Mid-Size Business
                 (LMSB) Division, and the Commissioner, Small
                 Business/Self-Employed (SB/SE) Division, should
                 consider requiring a standard form for the apportionment
                 plan which will meet the needs of their compliance
                 functions as well as the needs of their submission
                 processing functions. The Commissioners should
                 coordinate with the Director, Tax Forms and
                 Publications, Wage and Investment (W&I) Division,
                 regarding the requirements of the form. In addition,
                 they should consider changing instructions to require a
                 copy of the apportionment plan form to be attached to
                 the return each year. This form should include
                 information required to process the return, including
                 taxable income amounts and apportionment of
                 additional 5 percent or 3 percent tax amounts for all
                 members of the group.
              Management’s Response: The LMSB Division will work
              with the Chief Counsel, SB/SE Division Compliance
              function, and the W&I Division Tax Forms and Publications
              function to review Treasury Regulation 1.1561-3(b) and
              determine the feasibility of requiring a standard form to be
              filed annually for the apportionment plan, which will meet
              the needs of the IRS’ compliance functions as well as the
              needs of its submission processing functions. Additionally,
              the Commissioners, LMSB and SB/SE Divisions, will
              coordinate the requirements of the proposed form and
              necessary revisions to Form 1120 instructions with the
              Chief Counsel and the Director, Tax Forms and
              Publications, W&I Division.

                                                                    Page 7
                       Improvements Are Needed for Processing
                   Income Tax Returns of Controlled Corporate Groups

                                 2. The Director, Customer Account Services, SB/SE
                                    Division, should stress during training the importance of
                                    following existing processing instructions for smaller
                                    volume business return programs. This training should
                                    emphasize processing procedures and instructions for
                                    controlled corporate group returns such as manual
                                    verification of tax (and corresponding with taxpayers
                                    when necessary) and the impact these actions have on
                                    the processing of returns.
                                 Management’s Response: Customer Account Services
                                 function analysts will coordinate with the course developers
                                 to ensure the relevant section in the training material is
                                 clearly stated prior to distribution to the field. In addition,
                                 the analysts will participate in employee training to stress
                                 the importance of following the training instructions and
                                 manually verifying the tax when processing controlled
                                 corporate groups. Internal Revenue Manual instructions
                                 will also be revised to simplify the steps in the manual
                                 verification process.
                                 3. The Director, Customer Account Services, SB/SE
                                    Division, should consider requesting revisions to
                                    computer programming to lower the threshold to
                                    systemically identify returns potentially liable for
                                    additional taxes and to identify returns without properly
                                    filed apportionment plans.
                                 Management’s Response: The Director, Customer Account
                                 Services, SB/SE Division, will conduct a study of controlled
                                 corporate groups to determine the feasibility of revising
                                 computer programming to systemically identify returns
                                 potentially liable for additional tax. The study will
                                 thoroughly analyze a valid sample of returns with a
                                 controlled corporate group 1 edited on returns and filed
                                 during Tax Year 2005. Results of the study will include a
                                 cost-benefit analysis to determine the feasibility of lowering
                                 the threshold.
                                 As discussed earlier, the apportionment plan for a controlled
Taxpayer Burden Could Be
                                 corporate group must be signed by an authorized person and
Reduced by Requiring Less
                                 include the name, address, Taxpayer Identification Number,
Information on Apportionment
                                 tax year, amount apportioned, and IRS Submission
Plans
                                 Processing site at which the original apportionment plan is

                                                                                         Page 8
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups

              to be filed. Much of this information is available elsewhere
              on the tax return or is not needed to process the tax return.
              It is important that tax returns contain all information
              necessary to complete proper processing. However,
              requiring unnecessary information results in additional
              taxpayer burden. The IRS Office of Taxpayer Burden
              Reduction has focused its efforts on reducing unnecessary
              taxpayer burden, including current requirements that
              taxpayers provide the same information more than one time,
              that taxpayers provide information not used by the IRS, or
              that taxpayers provide information which gives only
              minimal assistance in determining the accuracy of a return.
              When determining what should be required on the
              apportionment plan, the IRS did not take into consideration
              the availability of the information already included with the
              return or limit the requested information to that which is
              needed to process the return or determine the correct tax
              liability.
              Taxpayer burden is increased when taxpayers must provide
              information that is already available to the IRS elsewhere or
              that is not required for return processing.

              Recommendation

              4. The Division Counsel/Associate Chief Counsel (LMSB)
                 and Associate Chief Counsel (Corporate), working with
                 the Director, Tax Forms and Publications, W&I
                 Division, should evaluate the necessity for each item
                 now required in the apportionment plan and determine
                 whether items can be eliminated. They should also
                 provide input to the Commissioners, LMSB and SB/SE
                 Divisions, regarding the recommendation to require a
                 copy of the apportionment plan to be attached to the tax
                 return of each member of the controlled corporate group
                 each year.
              Management’s Response: The Associate Chief Counsel
              (Corporate) will work with the Director, Strategy, Research,
              and Program Planning, LMSB Division; the SB/SE Division
              Compliance function; and the W&I Division Tax Forms and
              Publications function to determine information that is
              required with respect to controlled corporate group member
                                                                     Page 9
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups

              consents, and apportionment plans, in light of the
              apportionment information the IRS needs.




                                                                   Page 10
                            Improvements Are Needed for Processing
                        Income Tax Returns of Controlled Corporate Groups

                                                                                                   Appendix I


                         Detailed Objectives, Scope, and Methodology

Our overall objectives were to evaluate the Internal Revenue Service’s (IRS) effectiveness in
processing the income tax returns of controlled corporate groups1 and to evaluate taxpayers’ and
tax preparers’ understanding of the filing requirements for members of controlled corporate
groups. To accomplish our objectives, we:
I.      Determined whether the IRS had an effective process in place to identify, control, and
        correct processing problems related to income tax returns for controlled corporate groups.
        A. Identified and evaluated controls in place within the Processing Division of the IRS
           campuses.2
             1. Obtained and reviewed the Internal Revenue Manual (IRM) and local procedures
                used for identifying and processing controlled corporate group returns.
             2. Obtained and reviewed applicable letters, notices, error resolution error codes and
                explanations, and math error taxpayer notice codes related to issues for controlled
                corporate group returns.
             3. Determined whether explanations and wording in letters and notices clearly and
                accurately explained the error or issue to the taxpayer.
             4. Discussed with local employees, managers, and analysts within the various
                processing functions any concerns or problems they are experiencing with
                processing controlled corporate group returns.
             5. Evaluated IRM procedures, local procedures, and concerns or problems identified
                to determine whether they are effective to accurately identify and process
                controlled corporate group returns.
        B. Identified and evaluated controls in place nationally to identify, control, and correct
           processing-related issues and problems related to controlled corporate groups.
             1. Determined whether there were any national procedures, instructions, etc. (other
                than the IRM) used by the operating divisions to identify and process controlled
                corporate group returns.



1
  Corporations are classified as members of a controlled group if they are connected through certain stock
ownership. All corporate members of a controlled group are treated as one single entity for tax purposes. However,
each member of the group can file its own tax return rather than the group filing one consolidated return.
2
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 11
                               Improvements Are Needed for Processing
                           Income Tax Returns of Controlled Corporate Groups

               2. Reviewed applicable web sites and other IRS documentation to identify issues or
                  problems that related to controlled corporate group returns.
               3. Determined whether tax forms, publications, and applicable instructions given to
                  taxpayers filing controlled corporate group returns were accurate and provided
                  sufficient information to allow taxpayers to accurately file income tax returns.
               4. Reviewed the business Functional Specification Package for all applicable U.S.
                  Corporation Income Tax Returns (Form 1120) processing to determine whether
                  programming to process controlled corporate group returns is accurate.
II.        Determined whether corporation returns for members of controlled corporate groups were
           properly processed and accurately filed.
           A. Determined whether the IRS was properly processing and assessing the correct
              amount of tax on corporation returns for members of controlled corporate groups.
               1. Identified from the IRS Business Returns Transaction File (BRTF)3
                  45,729 returns processed during Calendar Year 2002 with a control group code 1,
                  indicating they are a member of a controlled corporate group. We verified that all
                  return information was accurate by comparing the data on 10 returns against
                  information from the IRS’ records.
               2. Stratified the population of 45,729 returns into 36,354 returns with net taxable
                  income greater than $6,666 (a potential income tax effect of at least $1,000 with a
                  tax rate of 15 percent). We reviewed a statistical sample of 73 of these returns to
                  determine whether the IRS computed the correct income tax using the correct tax
                  rate, taxable income and tax computations were considered for all members of the
                  controlled corporate group, and the IRS accurately identified and corrected return
                  errors. Our sample size was determined based on a 95 percent confidence level,
                  an expected error rate of 25 percent, and a precision of +/- 10 percent. A
                  statistical sample was taken because we wanted to estimate the number of returns
                  the IRS inaccurately processed.
           B. Determined whether taxpayers were properly filing returns and paying the correct
              amount of income tax.




3
    The BRTF contains information from business tax returns filed for the current and 2 previous years.


                                                                                                          Page 12
             Improvements Are Needed for Processing
         Income Tax Returns of Controlled Corporate Groups

1. Reviewed a statistical sample of 73 of the 36,354 returns to determine whether
   taxpayers used the correct income tax rate and computed the correct tax, problems
   existed in the allocation of income tax brackets among all members of the
   controlled corporate group, and taxable income and tax computations were
   considered for all members of the controlled corporate group. Our sample size
   was determined based on a 95 percent confidence level, an expected error rate of
   25 percent, and a precision of +/- 10 percent. A statistical sample was taken
   because we wanted to estimate the number of returns with taxpayer filing errors.




                                                                            Page 13
                        Improvements Are Needed for Processing
                    Income Tax Returns of Controlled Corporate Groups

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Kyle R. Andersen, Audit Manager
Kyle D. Bambrough, Lead Auditor
W. George Burleigh, Senior Auditor
Layne Powell, Information Technology Specialist




                                                                                       Page 14
                       Improvements Are Needed for Processing
                   Income Tax Returns of Controlled Corporate Groups

                                                                               Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
Assistant Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Deputy Chief Counsel (Operations) CC
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:CL
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Strategy and Resources Management, Wage and Investment Division SE:W:S
Director, Strategy, Research, and Program Planning, Large and Mid-Size Business Division
SE:LM:SR
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Associate Chief Counsel (Corporate) CC:CORP
Division Counsel/Associate Chief Counsel (Large and Mid-Size Business) CC:LMSB
Field Director, Submission Processing (Cincinnati), Small Business/Self-Employed Division
SE:S:CAS:SP:C
Field Director, Submission Processing (Ogden), Small Business/Self-Employed Division
SE:S:CAS:SP:O
Staff Assistant, Small Business/Self-Employed Division SE:S
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Chief Counsel CC:PA:LPD:LU
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S:COM
       Commissioner, Wage and Investment Division SE:W:S:PA




                                                                                      Page 15
                            Improvements Are Needed for Processing
                        Income Tax Returns of Controlled Corporate Groups

                                                                                                 Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $5,934,666 annually ($29.67 million over 5 years) in
    additional taxes for 3,984 taxpayers (see page 2).
Methodology Used to Measure the Reported Benefit:
Selection of Sample -
We identified from the Internal Revenue Service (IRS) Business Returns Transaction File
(BRTF)1 45,729 returns processed during Calendar Year 2002 with a control group code 1,
indicating they are a member of a controlled corporate group.2 We then stratified our population
of returns identified into 36,354 returns with net taxable income greater than $6,666 (a potential
income tax effect of at least $1,000 with a tax rate of 15 percent). We selected a statistically
valid sample of 73 of these returns at a 95 percent confidence level, an expected error rate of
25 percent, and a precision of +/- 10 percent. We obtained tax returns and reviewed them to
determine whether the IRS correctly processed the returns and computed the correct income tax
using the correct tax rate and whether taxpayers correctly filed the returns and computed taxes at
the correct rate.
Sample Results –
We determined taxpayers incorrectly filed 8 of the 73 returns and underpaid income taxes by
$11,917. The remaining returns were correctly filed, had no determinable tax effect, or had an
overpayment of income taxes.
Projection of Sample Results –
$5,934,666 - Additional taxes to be assessed by the IRS annually. In our sample of 73 cases, we
found that income taxes were underpaid by $11,917. Using the average dollar error of the
sample, we estimate there was a total of $5,934,6663 in underpaid income tax in our population
of returns ($11,917 divided by 73, multiplied by the population of 36,354).


1
  The BRTF contains information from business tax returns filed for the current and 2 previous years.
2
  Corporations are classified as members of a controlled group if they are connected through certain stock
ownership. All corporate members of a controlled group are treated as one single entity for tax purposes. However,
each member of the group can file its own tax return rather than the group filing one consolidated return.
3
  This point estimate is based on a 95 percent confidence level and a precision of +/- $4,585,987.
                                                                                                         Page 16
                               Improvements Are Needed for Processing
                           Income Tax Returns of Controlled Corporate Groups

3,984 - Taxpayers filing incorrect returns. In our sample of 73 cases, we found that there were
8 returns incorrectly filed by taxpayers with underpayment of taxes. Using the same percentage
of occurrence for our sample and population, we estimate that, in our population, there were
3,984 returns on which the taxpayers may be filing with an underpayment of taxes (8 divided by
73, multiplied by the population of 36,354).
Type and Value of Outcome Measure:
•      Taxpayer Rights and Entitlements – Potential; $448,200 annually ($2.24 million over
       5 years) in overpayment of taxes for 1,494 taxpayers (see page 2).
Methodology Used to Measure the Reported Benefit:
Selection of Sample -
See Selection of Sample on previous page.
Sample Results –
We determined taxpayers incorrectly filed 3 of the 73 returns and overpaid income taxes by
$900. The remaining returns were correctly filed, had no determinable tax effect, or had an
underpayment of income taxes.
Projection of Sample Results –
$448,200 - Overpayment of taxes by taxpayers annually. In our sample of 73 cases, we found
that income taxes were overpaid by $900. Using the average dollar error of the sample, we
estimate there was a total of $448,2004 in overpaid income tax in our population of returns
($900 divided by 73, multiplied by the population of 36,354).
1,494 - Taxpayers filing incorrect returns. In our sample of 73 cases, we found that there were
3 returns incorrectly filed by taxpayers with overpayment of taxes. Using the same percentage of
occurrence for our sample and population, we estimate that, in our population, there were
1,494 returns on which the taxpayers may be filing with an overpayment of taxes (3 divided by
73, multiplied by the population of 36,354).




4
    This point estimate is based on a 95 percent confidence level and a precision of +/- $606,129.
                                                                                                     Page 17
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups

                                                    Appendix V


 Management’s Response to the Draft Report




                                                        Page 18
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups




                                                    Page 19
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups




                                                    Page 20
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups




                                                    Page 21
    Improvements Are Needed for Processing
Income Tax Returns of Controlled Corporate Groups




                                                    Page 22
